           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        CONTROLS FOR ISSUING
  SOCIAL SECURITY NUMBER PRINTOUTS


    December 2011    A-04-11-11105




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      December 13, 2011                                                         Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls for Issuing Social Security Number Printouts (A-04-11-11105)


           OBJECTIVE
           The objectives of our review were to determine whether (1) the Social Security
           Administration (SSA) had adequate internal controls over the issuance of Social
           Security number (SSN) Printouts; and (2) field offices located near the United States-
           Mexico border issued an unusually high number of SSN Printouts.

           BACKGROUND
           In compliance with the Privacy Act of 1974 (Privacy Act) and other applicable laws and
           regulations,1 SSA’s information disclosure policy dictates that it will protect the privacy
           of individuals to the fullest extent possible, while also permitting the exchange of
           information needed to fulfill its administrative and program responsibilities. Federal law,
           subject to certain exceptions, gives individuals the right to access their personal
           information in SSA’s systems of records. 2

           Generally, individuals have access to SSA records the Agency can retrieve by name,
           SSN, or other personal identifier. 3 This includes SSN-related enumeration records,
           such as the original Application for a Social Security Card and the Numident. 4 The
           Numident contains a significant amount of the numberholder’s personally identifiable
           information (for example, name, SSN, date of birth, place of birth, and parents’ names).

           1
            Privacy Act of 1974, 5 U.S.C. § 552a. see also the Social Security Act § 1106, 42 U.S.C. § 1306 and
           20 C.F.R. Part 401.
           2
               20 C.F.R. § 401.35.
           3
               20 C.F.R. § 401.20(a).
           4
            The Numident is an electronic record of the information on an individual’s original application for an SSN
           and subsequent applications for replacement cards. Numident printouts are not issued by SSA field
           offices. Rather, to obtain a Numident, an individual must send a written request to SSA’s Central Office
           and pay a fee.
Page 2 - The Commissioner


Because SSA was concerned about identity theft that could occur if someone with ill
intent obtained a Numident, in January 2002, SSA began issuing SSN Printouts, which
contain the numberholder’s name and SSN. See Appendix B for an example of an SSN
Printout. The SSN card is the only official paper verification of an individual’s SSN.
However, an SSN Printout contains the same information, but with none of the same
security features.

The Real ID Act of 2005 (Real ID Act) modified Federal law pertaining to the security,
authentication, and issuance procedures for State driver’s licenses and identification
cards. 5 To comply with the Real ID Act, a State can only issue a driver’s license or
identification card when the applicant provides documentation of the SSN or verification
the applicant is not eligible for an SSN. 6 According to the Department of Homeland
Security regulations regarding implementation of the Real ID Act, States can accept
several types of documentation as proof of the SSN, including the SSN card, a
Form W-2, a Form SSA-1099, a non-SSA-1099 Form, or a pay stub bearing the
applicant’s name and SSN. 7 Although regulations do not specifically mention the SSN
Printout, some States accept it as proof of the SSN. For example, the Ohio Bureau of
Motor Vehicles and the Mississippi Department of Public Safety accept the SSN
Printout in their driver’s license application processes.

In Fiscal Year (FY) 2009, SSA issued about 7 million SSN Printouts. See Appendix C
for the distribution of SSN Printouts by SSA regions. The number of SSN Printouts
issued has continued to increase each year since FY 2003, the first full year SSA issued
them. Table 1 details the number of SSN Printouts issued by FY.

                                          Table 1: SSN Printouts by FY
                                                                           Percentage
                                                      Increase from
                       FY             SSN Printouts                       Increase from
                                                      Previous Year
                                                                          Previous Year
                      2003              4,618,180          --                   --
                      2004              5,304,052       685,872                14.9
                      2005              5,621,500       317,448                6.0
                      2006              6,336,750       715,250                12.7
                      2007              6,826,106       489,356                7.7
                      2008              6,933,663       107,557                1.6
                      2009              7,014,882        81,219                1.2

We previously reviewed SSA’s controls over SSN Printouts, and reported our results in
December 2007. 8 In that report, we made eight recommendations to improve SSA’s

5
    Real ID Act of 2005, Pub. L. No. 109-13, 119 Stat. 231, Division B.
6
    Id. at Title I, § 202(c)(1)(C).
7
    6 C.F.R § 37.11(e).
8
 SSA OIG, Controls for Issuing Social Security Number Verification Printouts (A-04-07-27112),
December 2007.
Page 3 - The Commissioner


controls over the issuance of SSN Printouts. SSA agreed with three recommendations,
partially agreed with four, and disagreed with one. SSA took some corrective actions in
response to our recommendations. For example, SSA changed the name of the
document from SSN Verification Printout to SSN Printout, and removed reference to a
credit card as an acceptable form of identification to obtain the document. Additionally,
SSA reported that it adopted a function to monitor SSN Printout transactions in the
Web-based Comprehensive Integrity Review Process (Web CIRP). 9 See Appendix D
for detailed information on our recommendations and SSA’s response from our 2007
report.

We initiated this second review of SSN Printouts in response to an inquiry posed during
an April 15, 2010 hearing on SSA field office service delivery before the U.S. House of
Representatives, Committee on Ways and Means, Subcommittee on Social Security.
That inquiry questioned how many SSN Printouts SSA issued at field offices near the
United States-Mexico border. The Inspector General stated that his office would review
this issue. See Appendix E for information on our scope and methodology.

RESULTS OF REVIEW
Despite some corrective actions SSA took in response to our previous report, we
continue to believe the Agency should strengthen its controls for issuing SSN Printouts.
In fact, since our December 2007 report, we found an increase in the (1) number of
SSN Printouts SSA issued, (2) volume of numberholders obtaining more than 10 SSN
Printouts in a day and a year, and (3) occurrences of fraud involving SSN Printouts.

In response to our previous report, SSA emphasized the importance of protecting the
integrity of the SSN and the enumeration process. However, SSA also stressed that its
procedures for issuing SSN Printouts must comply with the intent of the Privacy Act and
Office of Management and Budget (OMB) guidelines—to provide individuals appropriate
and timely access to their SSN information. As such, SSA’s identity requirements for
issuing SSN Printouts are less stringent than those for issuing replacement SSN cards.
We acknowledge the importance of SSA’s compliance with Privacy Act and OMB
guidelines. Nevertheless, we are concerned SSA continues to issue a high number of
SSN Printouts with less stringent identity requirements and fewer controls than those for
SSN cards. Additionally, unlike SSN cards, SSN Printouts have no physical security
features—which makes them easier to counterfeit and more prone to SSN misuse and
identity theft.

Similar to our previous review, we noted in this audit that SSA managers still had little
information to monitor the number of SSN Printouts issued and related anomalies.
Better information would enable SSA managers to identify and address potential

9
  Implemented in FY 2008, Web CIRP is an electronic application that provides management information
on sensitive data that staff access in SSA’s system of records. Specifically, Web CIRP provides
information resulting from automated integrity reviews of transactions involving enumeration,
Supplemental Security Income; and Retirement, Survivors and Disability Insurance. Access to Web CIRP
is restricted to authorized managers.
Page 4 - The Commissioner


problems, such as SSA staff offering SSN Printouts to all or most replacement SSN
card applicants and numberholders who obtained an excessive number of printouts in
1 day or year.

Overall, SSA continues to issue a high number of SSN Printouts. As such, we believe
SSA should improve its procedures to control and account for the issuance of SSN
Printouts while also making efforts to reduce the unnecessary demand for the document
as a form of SSN verification.

Lastly, we found, that the 18 field offices located within 30 miles of the United States-
Mexico border did not generally issue a higher number of SSN Printouts than field
offices located more than 30 miles from the border.

CONTROLS FOR SSN PRINTOUTS SHOULD BE IMPROVED

SSN cards and Printouts contain the same information—the numberholder’s name and
SSN. However, SSA processes a replacement SSN card and an SSN Printout
differently, and the two documents differ themselves. These differences are as follows.

•   The identity requirements for obtaining an SSN Printout are less stringent than those
    for obtaining a replacement SSN card.

•   SSA limits the number of replacement SSN cards an individual can obtain, but has
    not established limits on SSN Printouts.

•   SSA processes and controls replacement SSN cards through the Social Security
    Number Application Process (SSNAP) system, while it issues SSN Printouts via a
    simple system query print function.

•   An SSN card has physical security features—the SSN Printout has none.

While the process for issuing replacement SSN cards and the SSN Printout differ
considerably, and the documents themselves are not similar in appearance, SSA issues
almost two SSN Printouts for every three replacement SSN cards it issues. Table 2
compares the number of replacement SSN cards and SSN Printouts issued since
FY 2004.
         Table 2: Replacement SSN Cards and SSN Printouts Issued by FY
                        Number of                              Percentage of SSN
                                         Number of SSN
          FY           Replacement                          Printouts to Replacement
                                           Printouts
                        SSN Cards                                     Cards
         2004           12,364,771          5,304,052                  42.9
         2005           12,078,921          5,621,500                  46.5
         2006           11,575,697          6,336,750                  54.7
         2007           11,555,718          6,826,106                  59.1
         2008           11,732,831          6,933,663                  59.1
         2009           11,393,350          7,014,882                  61.6
Page 5 - The Commissioner


Differences in Identity Requirements

The identity requirements for obtaining an SSN Printout are less restrictive than those
for obtaining a replacement SSN card. Although SSA prefers a State driver’s license or
State photograph identification to process and issue an SSN Printout, SSA allows an
individual to obtain an SSN Printout with other, less probative, identity documents or
without any identity documents. 10 For example, an individual could obtain an SSN
Printout with a health insurance card that does not contain a picture of the applicant or
the individual’s date of birth. However, generally, this document would not be an
acceptable form of identification to obtain a replacement SSN card. Also, an individual
who cannot provide any identity documents can obtain the SSN Printout by answering
certain identifying questions and signing a form stating they are who they claim to be. 11
Further, in contrast with SSA’s enumeration policies, Agency procedures allow an
individual to obtain an SSN Printout by calling SSA. 12 In this situation, photograph
identification is not required, and individuals prove their identity by providing identifying
information—not identity documents.

We visited 11 field offices 13 and observed SSA personnel issuing 69 SSN Printouts. Of
these 69 SSN Printouts, SSA personnel issued

•     7 (10.1 percent) when the requestor had no identifying documentation; and

•     6 (8.7 percent) based on identity documents that would not be acceptable to obtain a
      replacement SSN card.

Given the personally identifiable information in these documents, which we believe is
equal to that of the SSN card, we are concerned that SSA issued almost 20 percent
without substantive proof of the requestor’s identity.

We acknowledge that the less restrictive identity requirements for obtaining an SSN
Printout are consistent with SSA’s disclosure regulations that implement the Privacy
Act. 14 However, we believe these reduced requirements increase the chance SSA will
improperly provide an individual with personally identifiable information they should not
have. We recognize the hardship individuals experience when attempting to replace
lost or stolen identity documents. Often, the first step in replacing these documents is a

10
     SSA, Program Operations Manual System (POMS), GN 03340.015 B (October 08, 2010).
11
     SSA, POMS, GN 03380.005 B.1 (December 20, 2010) and GN 03340.015 B (October 8, 2010).
12
     SSA, POMS, GN 03340.015 B (October 8, 2010).
13
  We visited the following 11 SSA field offices: Albuquerque, New Mexico; Atlanta West, Georgia;
Austin, Texas; Birmingham (Downtown), Alabama; Columbia, South Carolina; El Paso, Texas;
El Paso (Downtown), Texas; Las Vegas Card Center, Nevada; Mobile, Alabama; Pensacola, Florida; and
San Antonio (Downtown), Texas.
14
     20 C.F.R. § 401.40(a).
Page 6 - The Commissioner


visit to an SSA field office to obtain proof of the individual’s SSN. Accordingly, although
we believe SSA should require that applicants for SSN Printouts provide the same
identity documents the Agency requires for a replacement SSN card, we acknowledge
that SSA may need to implement exception procedures. For example, if an individual’s
required identity documents are lost or stolen—and the individual will not be able to
replace these documents without proof of an SSN—SSA could require management
approval before issuing the SSN Printout.

No Limits on the Number of SSN Printouts

In compliance with the Intelligence Reform and Terrorism Prevention Act of 2004
(IRTPA), SSA limits the number of replacement SSN cards a numberholder can obtain
to 3 in a year and 10 in a lifetime. 15 However, SSA has not imposed any limits on the
number of SSN Printouts a numberholder can obtain in a day, year, or lifetime. We
believe the ability to obtain unlimited quantities of SSN Printouts may negate the
intended benefits from the limits on replacement cards. We recognize the Privacy Act
requires that SSA give the numberholder access to information it holds in its systems of
records. However, we believe SSA should establish a limit on the number of SSN
Printouts an individual may obtain in a day, year, and lifetime, and require specific
management approval for requests that exceed that limit.

Our analysis of the SSN Printout data found the number of individuals to whom SSA
issued 10 or more SSN Printouts in a day and in a year increased from the number we
discussed in our December 2007 report. In that report, we stated that in FY 2006, SSA
issued 10 or more SSN Printouts in 1 day to 36 different numberholders; and issued
10 or more SSN Printouts in the year to 77 numberholders. In FY 2009, these numbers
increased to 89 and 158, respectively.

Our Office of Investigations (OI) searched its databases for a criminal allegation or
investigation related to any of the numberholders who obtained more than 10 SSN
Printouts in FY 2009 or the first 6 months of FY 2010. OI identified nine SSNs that met
the search criteria. For four of these SSNs, the cases involved counterfeiting or altering
SSN Printouts. For the other five SSNs, the cases involved SSN misuse and/or identity
theft. We believe proactive integrity reviews of instances in which the number and
frequency of SSN Printouts appear unusual would help limit misuse of the document.




15
  Pub. L. No. 108-458, 118 Stat. 3638, § 7213, 42 U.S.C. § 405 note. SSA’s Commissioner may, in
compelling circumstances and on a case-by case basis, allow for reasonable exception to the limits set
forth in the law.
Page 7 - The Commissioner


Difference in Processing Controls

When field office staff process a replacement SSN application, SSNAP establishes a
record of the applicant’s identity document(s). For example, field office staff record in
SSNAP the type of document presented, the document’s identification number, and
other pertinent information. Also, when the application is cleared for processing,
SSNAP updates the Numident to reflect the SSN card action. In contrast, when field
office staff complete an SSN Printout action, they only execute a print function within the
Numident query. As a result, no SSA system establishes a record of the identity
documents presented with each SSN Printout request. Additionally, the Numident does
not capture and include a record that SSA issued a numberholder an SSN Printout.

SSA often issues SSN Printouts in conjunction with replacement SSN card applications.
However, SSNAP does not include a step to document the issuance of an SSN Printout
in conjunction with a successful replacement card application. We recognize that SSA
may need to expend resources to modify SSNAP to account for the issuance of all SSN
Printouts. However, given the high volume of SSN Printouts SSA issues annually, we
emphasize the importance of having a method to control and account for the issuance
of SSN Printouts. As such, we believe SSA should consider cost-effective methods of
controlling and accounting for the issuance of SSN Printouts.

SSN Printouts Lack Physical Security Features

In addition to being easier to obtain than replacement SSN cards, an SSN Printout has
no physical security features to prevent it from being counterfeited and used in fraud. In
contrast, the SSN card has several security features. The SSN Printout is printed on
plain white printer paper in standard black ink. To authenticate the document, SSA
requires that personnel stamp the field office name and address on the SSN Printout
and sign it. Although the stamp and signature provide some level of authenticity, we
believe that with today’s technology, an unscrupulous individual could alter and produce
a counterfeit SSN Printout. In addition to the examples of SSN Printout fraud
mentioned above, another OI case involved individuals who counterfeited SSN Printouts
to obtain jobs.

While we believe adding physical security features to SSN Printouts would make them
more difficult to alter or counterfeit, given SSA’s limited resources, we recognize that
implementing such a change may be cost-prohibitive. To include physical security
features in each SSN Printout issued, SSA would likely experience increased
processing costs in addition to the costs of the security feature themselves. As such,
we believe efforts to better control and account for SSN Printouts, in conjunction with
efforts to decrease the demand for the document, would help reduce the possibility of
individuals using the SSN Printout for fraud.
Page 8 - The Commissioner


MANAGEMENT INFORMATION IS NEEDED TO BETTER MONITOR THE SSN
PRINTOUT WORKLOAD

SSA has not developed easily accessible and useful management information for SSN
Printouts. As a result, field office management did not have data to monitor this
workload properly. The lack of information limits management’s ability to identify trends
or anomalies that require further investigation. Information on this workload would
enable management to identify such concerns as a high volume of SSN Printouts
issued from a specific office or employee and the issuance of multiple SSN Printouts to
a numberholder.

SSA captures information for processed SSN Printouts in its Audit Trail System. The
data include the SSN queried, date the SSN Printout was issued, office code of the
issuing field office, and employee’s code for the staff who processed the action. In
FY 2008, SSA’s Web CIRP system began monitoring data from the Audit Trail System
and other SSA systems of records to develop management information on actions that
involved sensitive information. Web CIRP included an application to provide information
on SSN Printout transactions. At the field office level, Web CIRP provides management
with a list of SSNs for issued SSN Printouts. Web CIRP lists the SSNs by employee
and date. However, Web CIRP does not summarize the data into easy to use
management information. For example, Web CIRP neither provides a monthly report
identifying the total number of SSN Printouts a field office or a field office employee
issued; nor identifies numberholders who received multiple SSN printouts. Also, we are
concerned that, although Web CIRP made SSN Printout data available to field office
managers, none of the 26 field offices we reviewed used Web CIRP to monitor SSN
Printout transactions.

In September 2010, we notified SSA that we were initiating this audit, and we provided
the Agency with our list of the 25 field offices that issued the most SSN Printouts in
FY 2009. At the end of our review, we compared the average monthly SSN Printouts
these offices issued in FY 2010 to the same average for the first 6 months of FY 2011.
We found that 22 (88 percent) of the 25 field offices had an average monthly decline in
the number of SSN Printouts issued from FY 2010 to FY 2011. Further, 3 of the 25 field
offices had a monthly average decline of more than 35 percent during this period, as
detailed in Table 3.
Page 9 - The Commissioner


      Table 3: Top 25 Field Offices with a 35 Percent or Higher Decline in the
            Number of SSN Printouts Issued from FY 2010 to FY 2011
                           FY 2010             FY 2011         Decline in
                                                                            Percentage
                           Monthly         (First 6 Months)    Number of
                                                                             Decline in
      Field Office        Average of       Monthly Average       SSN
                                                                           SSN Printouts
                         SSN Printouts     of SSN Printouts    Printouts
                                                                              Issued
                            Issued              Issued          Issued
 Austin, Texas                    2,052                  407       (1,645)        -80.2%
 Las Vegas, Nevada                3,976                1,961       (2,016)        -50.7%
 San Antonio, Texas               1,993                1,291         (702)        -35.2%

The Austin, Texas, field office manager explained that, as a result of our audit, the field
office had taken actions to reduce the number of SSN Printouts it issued to individuals
who

•   applied for an original SSN,
•   requested the document so an employer could verify their SSN, and
•   assumed they needed the SSN Printout for the State Department of Motor Vehicles
    (DMV), when in fact, the DMV no longer accepted the SSN Printout as a form of
    identification.

The manager also stated that the office initiated third-party outreach efforts that
emphasized the importance of using one of SSA’s online SSN verification services.

At the Las Vegas, Nevada, office, the manager stated that, after notification of our audit,
he received instructions from the regional office to remind staff to follow SSA policies
and procedures when issuing an SSN Printout. The manager attributed the decline in
the number of SSN Printouts to the office’s increased emphasis on only issuing the SSN
Printout when it was requested, and the office’s outreach to third parties to educate
them about SSA’s other SSN verification options.

The San Antonio field office manager explained that the decline was primarily attributed
to staff’s increased awareness to issue the SSN Printout only when requested, and to
the State DMV’s change in policy to no longer accept the SSN Printout as a form of
identification.

The experiences of these offices illustrate the value of SSN Printout management
information to field office and regional office managers. As such, we encourage the
Agency to improve the ease and usefulness of the information it provides.

LIMITING THE DEMAND FOR THE SSN PRINTOUT

Based on our interviews with SSA employees and several relevant organizations (for
example, State Departments of Public Safety and the American Association of Motor
Vehicle Administrators), we believe third parties who want the SSN Printout to verify an
individual’s SSN are one of the main drivers of SSN Printout volume and growth. Our
Page 10 - The Commissioner


observations of the issuance of 69 SSN Printouts showed that numberholders
requested these documents for various reasons, as detailed in Table 4.

                 Table 4: Reasons Why Customers Requested SSN Printouts
                                                                              SSN
                    Reason for SSN Printout Requests                                      Percent
                                                                            Printouts
     State DMV                                                                 20           29.0
     Employer                                                                  18           26.1
     State Social Service Agencies                                             15           21.7
     Other Third Parties (that is, tax preparers, banks, schools)               7           10.1
     Offered by SSA – Not Requested by Numberholder                             5            7.3
     Personal Use                                                               4            5.8
                                                                 Total         69           100

As confirmed by our observations, field office managers with whom we spoke stated
that State DMVs and employers are the third parties that most frequently ask
numberholders to obtain SSN Printouts. As discussed earlier, the Real ID Act of 2005
requires that applicants for a State driver’s license or identification card provide
documentation of their SSN, and some States are accepting the SSN Printout for this
purpose. 16 State DMVs then use SSA’s Social Security On-Line Verification (SSOLV)
service, which compares an individual’s name and SSN with SSA data to verify the SSN
that was provided. Table 5 details some of the SSN verification services SSA provides
to third parties.

                       Table 5: Some of SSA’s SSN Verification Services
        Service                  Users                           Method of Verification
       Employee             Employers and        Telephone, fax, or written request via mail.
      Verification           Certain Third       Employer must register with SSA when requests
        Service                Parties           exceed 50 SSNs.
     Social Security                             On-line verification only. Employer must register
                            Employers and
        Number                                   with SSA to obtain an activation code, personal
                             Certain Third
      Verification                               identification number and password.
                               Parties
        Service
                                                 On-line verification. Employer must register for
                                                 program with the Department of Homeland Security.
         E-Verify             Employers          E-Verify also provides information to the employer
                                                 regarding the employee’s work authorization status
                                                 in the United States.
                                                 On-line only. Users enter SSNs to be verified on
          SSOLV               State DMVs
                                                 SSA Website.

Even though SSA’s overall position is that the SSN card is the only official paper
verification of the SSN, in practice, third parties use the SSN Printout for just this
purpose in some instances. To address the continuing increased demand for SSN
Printouts by third parties, SSA could extend outreach to various third parties to raise the
awareness that SSA offers several verification services that third parties can use in lieu

16
     Real ID Act of 2005, Pub. L. No. 109-13, 119 Stat. 231, Division B.
Page 11 - The Commissioner


of the SSN Printout. However, we believe SSA also could explore other methods to
lessen the demand for the SSN printout—such as charging a fee for the document.

In September 2011, we completed a review, Congressional Response Report: Social
Security Administration Field Office User Fees. 17 The objectives of this review were
to identify services and records for which SSA could charge a fee, and to evaluate the
effect of charging fees on SSA’s customer service and workloads.

In this report, we concluded SSA could implement user fees for certain high-volume
services and records, including SSN Printouts, processed at its field offices. In
FY 2010, we estimated that the cost to SSA for processing the SSN Printout workload
was about $145 million. If SSA charged a fee to recover these costs, or avoided the
costs through decreased demand, SSA could focus its limited resources on other critical
workloads. In response to a draft of this report, the Agency stated that it established a
workgroup to study the best method to standardize fees, define the business process to
charge and collect fees, and determine the costs to implement a remittance process to
collect fees for certain services. The Agency further stated that the workgroup will
evaluate the legislative changes needed to authorize SSA to charge fees for statutorily
mandated services and the use of the resulting revenues.

STAFF DID NOT ALWAYS ISSUE SSN PRINTOUTS IN COMPLIANCE WITH SSA’s
POLICIES AND PROCEDURES

The field offices we reviewed did not always follow SSA regulations when issuing SSN
Printouts. Specifically, staff at some field offices offered SSN Printouts to individuals
who did not request them. In addition, in situations where the numberholder did not
have adequate identification, some field offices did not require that the numberholder
sign a form stating he/she was who they claimed to be.

SSN Printouts Offered to Individuals

SSA’s policies and procedures state that field offices should only provide SSN Printouts
upon request and must not routinely provide them to numberholders. 18 However, some
SSA field offices routinely offered SSN Printouts to individuals who applied for a
replacement SSN card, rather than only to those customers who requested one.
Specifically, 6 (23 percent) of the 26 field offices reviewed offered SSN Printouts to
customers who did not request them. Not only is this practice contrary to SSA policy, it
can greatly increase the number of SSN Printouts an office issues because many
people who do not need an SSN Printout may accept one when offered. For example,
at one field office that offered customers SSN Printouts, we observed SSA staff issuing
seven SSN Printouts. For two of those Printouts, the customers stated they had no
known use for the SSN Printouts but accepted them anyway. In another office, an SSA

17
  SSA OIG, Congressional Response Report: Social Security Administration Field Office User Fees
(A-04-11-01118), September 2011.
18
     SSA, POMS, RM 10225.005.B.2 (October 20, 2010).
Page 12 - The Commissioner


employee provided a replacement SSN card applicant with an SSN Printout and
referred to it as the individual’s “temporary Social Security card.”

We acknowledge that, in some instances, field office staff may offer SSN Printouts to
replacement SSN card applicants who do not have sufficient identity documents.
Specifically, if an individual does not have identity documents that meet the
requirements to obtain a replacement SSN card, the field office staff will provide him/her
an SSN Printout. The individual then uses this document to obtain a State driver’s
license or identity card. After obtaining a State driver’s license or identity card, the
individual must re-visit the field office to apply for a replacement SSN card. While
circuitous—and, certainly an increase in workload for SSA and inconvenience for the
applicant—requirements of the Real ID Act have made this process common for anyone
whose identity documents are lost or stolen. In such circumstances, we understand that
SSA staff may want to offer an individual an SSN Printout if he or she does not know to
ask for it. However, we do not believe it is appropriate to offer an SSN Printout to every
applicant for a replacement SSN card. Accordingly, we believe SSA should issue a
reminder to field office staff that SSN Printouts should be provided to requestors in
accordance with Agency policy.

Numberholders Not Required to Sign a Certifying Statement

According to SSA regulations, if an individual does not have adequate identification,
SSA staff should ask for enough identifying information (such as name, SSN, date of
birth, place of birth, address, etc.). 19 If all information the numberholder provides
matches the information in SSA’s records, SSA staff should obtain a signed statement
that the individual is who they claim to be. Many field offices use Form SSA-795,
Statement of Claimant or Other Person, for this purpose. However, 5 (22 percent) of
the 26 field offices in our review had not obtained these certifying statements, and
1 field office was not consistently obtaining the certifying statements. SSA should issue
a reminder to field office staff to obtain a signed form from all individuals who do not
have adequate identification stating they are who they claim to be.

FIELD OFFICES LOCATED NEAR THE UNITED STATES-MEXICO BORDER DID
NOT ISSUE AN UNUSUALLY HIGH NUMBER OF SSN PRINTOUTS

We analyzed FY 2009 SSN Printout data for the 18 SSA field offices located within
30 miles of the United States-Mexico border. In general, these field offices did not issue
a higher number of SSN Printouts than field offices located more than 30 miles from the
border. We ranked the field offices based on the number of SSN Printouts issued (most
to fewest) in FY 2009, and found that the El Paso, Texas, district field office ranked 16th
in the country—the only border office in the top 25 field offices issuing the highest
number of SSN Printouts. Table 6 provides the rank and number of SSN Printouts
issued in FY 2009 by field offices located within 30 miles of the United States-Mexico
border.


19
     SSA, POMS, GN 03340.015.B (October 8, 2010).
Page 13 - The Commissioner


       Table 6: Number of SSN Printouts Issued in FY 2009 by Field Offices
           Located Within 30 Miles of the United States-Mexico Border
                                                       SSN           Rank
                          Field Office               Printouts  (Based on 1,296
                                                      Issued     Field Offices)
         1   El Paso (District Office), Texas            25,188               16
         2   El Paso (Downtown), Texas                   12,483              146
         3   San Diego, California                        9,691              219
         4   El Cajon, California                         9,620              223
         5   La Mesa, California                          9,501              225
         6   Chula Vista, California                      8,171              280
         7   Kearny Mesa, California                      7,712              303
         8   El Centro, California                        7,263              323
         9   Laredo, Texas                                6,553              372
        10   Yuma, Arizona                                5,862              426
        11   National City, California                    5,421              455
        12   Nogales, Arizona                             2,100              849
        13   Eagle Pass, Texas                            2,041              859
        14   Brownsville, Texas                           1,751              904
        15   Douglas, Arizona                             1,489              960
        16   Del Rio, Texas                               1,308              992
        17   Harlingen, Texas                             1,105            1,031
        18   McAllen, Texas                                 275            1,210

During our audit, we visited both the El Paso district and El Paso downtown field offices.
The field office manager at the El Paso district office explained that the office processed
many original SSN applications, and the applicants often requested the SSN Printout for
use as SSN verification until they received the actual card in the mail. The manager
also explained that many schools in the area verified the students’ SSNs and parents
requested the SSN Printout for this purpose. Finally, the manager stated that to prevent
repeat visits, SSA staff ask all customers if they need verification of their SSN. The
manager at the El Paso downtown office explained that a nearby blood plasma donation
center requires that donors provide evidence of an SSN. Therefore, donors often visit
the field office to obtain an SSN Printout. The manager also stated that the Internal
Revenue Service sends many of its customers to the field office to obtain an SSN
Printout. Neither office manager specifically stated that its close proximity to the Mexico
border was a primary factor for issuing SSN Printouts.

CONCLUSION AND RECOMMENDATIONS

Because the SSN Printout contains sensitive personally identifiable information about
numberholders and could be misused, we believe SSA should strengthen its policies
and procedures for controlling and issuing these documents. Specifically, SSA should
establish a limit on the number of SSN Printouts an individual may obtain in a day, year,
and lifetime and require specific management approval for requests that exceed that
limit.
Page 14 - The Commissioner


Additionally, although Web CIRP provided some management information to help
monitor the SSN Printout workload, none of the 26 field office managers we interviewed
used the information. As such, we believe SSA should provide better and easier to use
management information to those responsible for this workload.

Finally, third parties continue to use the SSN Printout to verify an individual’s SSN. To
lessen the demand for this document, we believe SSA could consider options for
reducing the demand for this document, such as charging a fee for it. Our
September 2011 report on user fees, we concluded SSA could implement fees for
certain high-volume services and records, including SSN Printouts, processed at its field
offices. In FY 2010, we estimated that the cost to SSA for processing the SSN Printout
workload was about $145 million. If SSA charged a fee to recover these costs, or
avoided the costs through decreased demand, SSA could focus its limited resources on
other critical workloads. In response to a draft of this report, the Agency stated that it
established a workgroup to study the best method to standardize fees, define the
business process to charge and collect fees, and determine the costs to implement a
remittance process to collect fees for certain services. The Agency further stated that
the workgroup will evaluate the legislative changes needed to authorize SSA to charge
fees for statutorily mandated services and the use of the resulting revenues.

We recommend SSA:

1. Establish a limit on the number of SSN Printouts an individual may obtain in a day,
   year, and lifetime and require specific management approval for requests that
   exceed that limit.

2. Establish procedures that enable management to identify instances when the
   issuance of SSN Printouts may be reduced and enhance management oversight.

3. Require management approval prior to issuing an SSN Printout to an individual who
   provides insufficient or no identity documents. (As discussed below, we are
   withdrawing this recommendation.)

4. Develop and implement a cost-effective method for controlling and accounting for
   the issuance of SSN Printouts.

5. Develop and disseminate management information for the SSN Printout workload to
   responsible SSA personnel. At a minimum, the information should enable managers
   to identify anomalies in the number of SSN Printouts issued by field offices and to
   numberholders.

6. Issue a reminder to field office staff to issue SSN Printouts in accordance with SSA
   policy. We believe the reminder should advise that staff should not issue SSN
   Printouts to every replacement SSN card applicant. SSA should also remind field
   office staff to obtain a signed form from all individuals, who do not have adequate
   identification, stating they are who they claim to be.
Page 15 - The Commissioner


AGENCY COMMENTS
In response to our draft report, SSA agreed with 5 of our 6 recommendations. SSA
disagreed with Recommendation 3. A summary of the Agency’s response for
Recommendation 3 follows. See Appendix G for the full text of SSA’s comments.

Recommendation 3 suggested SSA require management approval prior to issuing an
SSN Printout to an individual who provides insufficient or no identity documents. SSA
disagreed with this recommendation and stated that it does not believe management
review of every request involving insufficient or nonexistent documentation would be
cost effective, in light of its other planned enhancements. SSA noted that it will evaluate
the overall SSN Printout process and revise policies and internal controls to limit SSN
Printouts and improve the identity requirements. SSA stated these revisions will include
additional management information and automated tools that will provide increased
management oversight.

OIG RESPONSE
We acknowledge SSA’s many planned improvements in its process for issuing SSN
Printouts. Based on the actions SSA agreed to take, we have decided to withdraw
Recommendation 3.




                                             Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Example of a Social Security Number Printout

APPENDIX C – Social Security Number Printouts by Region—Fiscal Year 2009 (Field
             Offices Only)

APPENDIX D – Recommendations and Agency Response from Audit, Controls for
             Issuing Social Security Number Verification Printouts (A-04-07-27112)

APPENDIX E – Scope and Methodology

APPENDIX F – Twenty-five Field Offices That Issued the Most Social Security Number
             Printouts—Fiscal Year 2009

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms

ATS           Audit Trail System
C.F.R.        Code of Federal Regulations
DMV           Department of Motor Vehicles
FY            Fiscal Year
IRTPA         Intelligence Reform and Terrorism Prevention Act of 2004
OI            Office of Investigations
OIG           Office of the Inspector General
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSN           Social Security Number
SSOLV         Social Security On-Line Verification
U.S.C.        United States Code
Web CIRP      Web-based Comprehensive Integrity Review Process
                                                           Appendix B

Example of a Social Security Number Printout

NUMI   DTE: 08/11/10   SSN: 000-00-0000 XC:   UNIT: OIG   PG: 001


                SOCIAL SECURITY ADMINISTRATION
               SOCIAL SECURITY NUMBER PRINTOUT

OUR RECORDS INDICATE THAT SOCIAL SECURITY NUMBER 000-00-0000
IS ASSIGNED TO JOHN DOE

YOUR SOCIAL SECURITY CARD IS THE OFFICIAL VERIFICATION OF YOUR
SOCIAL SECURITY NUMBER. THIS PRINTOUT DOES NOT VERIFY YOUR RIGHT
TO WORK IN THE UNITED STATES.

PROTECT YOUR SOCIAL SECURITY NUMBER FROM FRAUD AND IDENTITY
THEFT. BE CAREFUL WHO YOU SHARE YOUR NUMBER WITH.
                                                                  Appendix C
Social Security Number Printouts by Region—
Fiscal Year 2009 (Field Offices Only)
                               SSN                                      SSN
Region        State                       Region        State
                             Printouts                                Printouts
         Massachusetts          73,624             Texas                 742,272
         Rhode Island           26,110             Louisiana             226,546
         Connecticut            18,160             Arkansas               75,664
  1      New Hampshire          12,496      6      New Mexico             68,103
         Maine                   8,476             Oklahoma               33,218
         Vermont                 8,278                       Total     1,145,803
                     Total     147,144
         New York              174,682             Missouri              208,793
         New Jersey            139,332             Kansas                 42,801
  2      Puerto Rico           107,955      7      Nebraska               16,121
         Virgin Islands          3,330             Iowa                   15,872
                     Total     425,299                        Total      283,587
         Pennsylvania          238,666             Colorado               81,299
         Virginia               98,828             Utah                   21,868
         Maryland               54,201             Montana                11,516
         District of
  3      Columbia
                                48,770      8      South Dakota            7,347
         Delaware                25,017            Wyoming                 6,424
         West Virginia           17,757            North Dakota            4,469
                     Total      483,239                       Total      132,923
         Florida                470,858            California            732,147
         Georgia                287,058            Arizona                77,307
         Alabama                211,436            Nevada                 77,304
         North Carolina         188,278            Hawaii                 16,018
                                            9
  4      Tennessee              187,345            Guam                    4,458
         South Carolina         157,971            American Soma           3,681
         Mississippi            155,060            Saipan                    966
         Kentucky               136,462                       Total      911,881
                     Total    1,794,468            Washington             81,951
         Ohio                   502,953            Oregon                 52,475
         Illinois               339,961    10      Idaho                  15,727
         Michigan               273,854            Alaska                 15,291
  5      Indiana                254,879                       Total      165,444
         Wisconsin              101,819           Total of Regions     7,000,388
         Minnesota               37,134    Other SSA Components           14,494
                     Total    1,510,600       Total SSN Printouts      7,014,882
                                                                             Appendix D

Recommendations and Agency Response from
Audit, Controls for Issuing Social Security
Number Verification Printouts (A-04-07-27112)
REVISED COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT REPORT, "CONTROLS FOR ISSUING SOCIAL SECURITY NUMBER
VERIFICATION PRINTOUTS" (A-04-07-27112)

Thank you for the opportunity to review and comment on the draft report. We agree that it is
important to protect the integrity of the Social Security number (SSN) and the enumeration
process while at the same time ensuring that people have appropriate access to information that
would be necessary to gain employment and other services where the SSN is deemed essential.
We also agree that there should be controls in place to ensure that the SSN Verification Printouts
(SSN Printout) are not misused. However, any such procedures must comply with SSA’s, the
Office of Management and Budget’s (OMB) and other applicable Privacy Act and disclosure
guidelines. The procedures must also provide flexibility for individuals who need immediate
SSN documentation, but cannot provide the required evidentiary documents due to
circumstances beyond their control (i.e., victims of natural and unnatural disasters). Specific
examples of situations where we have experienced a large number of requests include displaced
individuals as a result of Hurricane Katrina and the September 11, 2001 terrorist attacks.

Our responses to the specific recommendations are provided below.

Recommendation 1

Revise applicable Federal regulation and SSA policy governing individuals’ right to access their
personal information maintained in the Agency’s system of records. Specifically, we believe
these individuals should be required to present the same type of identity documents as
replacement Social Security card applicants.

Response

We partially agree. We believe that the applicable regulation (20 CFR 401.45) and policies for
verifying identity are sufficient and establish requirements consistent with OMB Privacy Act
Guidelines for providing individuals access to their records. These guidelines indicate that
identity requirements should be kept to a minimum and ensure an individual is not granted
improper access to records pertaining to another person. The guidelines also state that identity
requirements should not unduly impede the individual’s right to access. Imposing additional
requirements for establishing identity may hinder the individual’s legitimate right of access to
his/her records and create an unnecessary workload for employees who receive these requests.



                                               D-1
Nevertheless, we acknowledge the threat of identity theft, and agree to evaluate the effectiveness
of improved controls to be implemented and will evaluate the current regulatory requirements to
determine what additional regulatory or non-regulatory measures may be used to make
disclosure of SSN printouts less vulnerable while ensuring that individuals’ Privacy Act rights
are not violated.

Current Program and Operations Manual System (POMS) instructions are very clear regarding
the purpose of the SSN card compared to the SSN Printout. While the documents needed for
identity purposes are not as stringent for an SSN Printout, the Numident does contain special
indicator codes alerting personnel to verify identity. These special indicator codes may also
prevent an SSN Printout from printing. Refer to RM 00202.320.F. Procedure – SSN Verification
Printout Request Generates Alert.

Recommendation 2

Establish an acceptable number of SSN Printouts an individual may obtain in a day, year or
lifetime, and require specific management approval for requests exceeding that number.

Response

We partially agree. The Privacy Act establishes an individual’s right of access to records
maintained by Federal agencies without limiting the number of times those records can be
requested. An SSN Printout is a record of an individual held by the Agency, and the Privacy Act
and OMB Privacy Act guidelines do not limit access to such information. Additionally, the
Agency’s efforts to establish a limited number of times an individual may request SSN Printouts
may be arbitrary in nature and may have a negative effect on his/her legitimate right of access to
this information. Nevertheless, we acknowledge the need to balance responsibility for protecting
SSNs with the obligation of providing individuals access to personal information in SSA’s
possession. Thus, we will assess the impact of limiting the number of SSN Printouts individuals
may request on their Privacy Act rights.

We also have considerable concerns regarding the resources that would be necessary to
implement the restrictions in this recommendation, since no misuse cases have been identified as
a result of the generation of multiple printouts. As part of our efforts to prevent abuse or misuse
of SSN Printouts, current POMS RM 00202.320.C.2 states, "In general, you should issue no
more than one verification printout to a requestor at the same interview/same day." However,
the policy as written allows the interviewer flexibility to issue multiple printouts if needed or
requested.

Recommendation 3

Establish procedures to perform routine integrity reviews of anomalies involving the issuance of
SSN Printouts. Any cases involving potential SSN misuse should be referred to OIG.




                                                D-2
Response

We partially agree. These actions will be captured through the Web-based Comprehensive
Integrity Review Process (CIRP), which is scheduled for implementation in fiscal year 2008.
We do not believe there is a need to establish special procedures for these cases. If abuse or
misuse cases are identified through routine CIRP reviews, they will be referred to OIG for
further action.

Recommendation 4

Consider developing a system or application similar to the SS-5 Assistant to document and track
actions taken to issue an SSN Printout.

Response

We agree that it is important to track actions taken to issue an SSN Printout. We believe we
currently have systems in place to obtain that data through the Audit Trail System and, by late
fiscal year 2008, these actions will be captured through the WEB based CIRP process which is
being developed. Also, as described in our response to recommendation 3, CIRP will track both
Numidents and NUMI Lites (SSN Printouts). In addition to targeted criteria designated to
monitor transactions involving sensitive queries, Web CIRP will also provide anomaly reports
and listings of sensitive queries performed by each employee sortable by SSN, type and date.
The Integrity Review Handbook contains instructions on the review and certification of potential
fraud or abuse cases. Our POMS GN 04100 contains additional procedures for referral of cases
to OIG.

Recommendation 5

Develop and disseminate management information for the SSN Printout workload to responsible
SSA personnel. At a minimum, the information should enable managers to identify anomalies in
the number of SSN Printouts issued by field offices and to numberholders.

Response

We partially agree. As indicated in our response to recommendation number 4, CIRP will make
information available to managers on the verifications processed. We do not believe that
multiple printouts alone are indicators of possible fraud, abuse or misuse. We reviewed the
multiple printout cases identified in this audit and determined that none involved fraud, abuse or
misuse.

Recommendation 6

Clarify SSA policies and the SSN Printout language to consistently communicate the Agency’s
official position as to whether the document is valid for SSN verification purposes.




                                               D-3
Response

We agree. While our statement on the printout and policy clearly states, “the Social Security
card is the official verification of a Social Security number,” we agree that the SSN Printout can
be confusing for the public and third parties as the title "SSN Verification Printout" is
misleading. We will clarify POMS instructions and the wording on the SSN Printout to provide
a consistent message; i.e., that the SSN Printout is not an official verification of an SSN. These
actions will be completed by December 31, 2007.

Recommendation 7

Extend outreach to employers, Department of Motor Vehicles (DMV) and other third parties in
areas where the demand for SSN Printouts is high to raise the awareness that SSA offers
verification services.

Response

We agree. We will continue our outreach efforts with employers regarding the procedures and
types of SSN verification services we provide. We will also remind our employees who perform
outreach activities with DMVs and other third parties to raise the awareness that we offer various
verification services.

Recommendation 8

Issue a reminder to field office staff that SSN Printouts should only be issued when the
numberholder expresses an immediate need for a verification of the SSN.

Response

We disagree. Current policy does not dictate that the number holder express an "immediate
need" for this information. As previously noted, the Privacy Act protects an individual’s right to
access his or her records. Furthermore, OMB’s Privacy Act guidelines indicate that the granting
of access may not be conditioned upon any requirement to state a reason or otherwise justify the
need to gain access to a particular record.




                                               D-4
                                                                       Appendix E

Scope and Methodology
To accomplish our objective, we performed the following steps.

•   Reviewed pertinent sections of Federal laws, regulations, and the Social Security
    Administration’s (SSA) policies and procedures.

•   Reviewed Office of the Inspector General reports and other relevant documents.

•   Obtained a data extract from SSA’s Audit Trail System (ATS) that contained
    detailed information on all Social Security number (SSN) Printouts issued from
    Fiscal Year (FY) 2007 through March 31, 2010.

•   Calculated the total SSN Printouts issued for FYs 2007 through 2009.

•   Analyzed the FY 2009 ATS data to determine the
     total number of SSN Printouts issued,
     distribution of SSN Printouts by SSA field office,
     25 field offices that issued the most SSN Printouts,
     total SSN Printouts issued by SSN–in a day and year, and
     total SSN Printouts issued to field offices located within 30 miles of the United
      States-Mexico border.

•   At the end of our audit, we obtained the most recent ATS SSN Printout data
    (April 2010 through March 2011) for the 25 field offices that issued the most SSN
    Printouts in FY 2009.

•   Interviewed officials from 26 SSA field offices (including the 25 that issued the most
    SSN Printouts in FY 2006) to determine (1) their procedures for issuing SSN
    Printouts and (2) whether they received any management information regarding the
    SSN Printout workload.

•   Visited 11 of the 26 field offices we interviewed to observe their procedures for
    processing SSN Printouts. In total, we observed SSA personnel issuing 69 SSN
    Printouts. We did not randomly select the SSN Printouts observed.

•   Obtained follow-up information regarding the recommendations from our December
    2007 report – Controls for Issuing Social Security Number Verification Printouts.
Our review of internal controls was limited to obtaining an understanding of SSA’s
procedures and controls for issuing SSN Printouts. For our analysis, we generally relied


                                            E-1
on data from SSA’s ATS. We determined that these data were sufficiently reliable to
satisfy our audit objectives. The SSA entities audited were the Offices of Operations,
Retirement and Disability Policy, and General Counsel, Privacy and Disclosure. We
conducted the audit from September 2010 through March 2011 in Atlanta, Georgia, and
select SSA field offices. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                         E-2
                                                                Appendix F

Twenty-five Field Offices That Issued the Most
Social Security Number Printouts—Fiscal Year 2009
                                    Social Security                  Percent of
                 Field                 Number         Replacement   Printouts to
                 Office               Printouts          Cards      Replacement
               Location                 Issued          Issued         Cards
1    Las Vegas, Nevada                  50,920          79,950             63.7%
2    San Antonio, Texas                 36,780          30,603            120.2%
3    Grand Prairie, Texas               36,720          32,478            113.2%
4    Houston (Southwest), Texas         32,994          37,521             87.9%
5    Cincinnati (Downtown), Ohio        32,643          19,460            167.7%
6    Mobile, Alabama                    31,424          23,721            132.5%
7    Fort Worth, Texas                  30,561          27,202            112.3%
8    Dallas (North), Texas              30,173          36,106             83.6%
9    Albuquerque, New Mexico            30,082          36,302             82.9%
10   Columbia, South Carolina           29,414          28,757            102.3%
11   Austin, Texas                      27,213          38,725             70.3%
12   Columbus, Ohio                     26,731          17,303            154.5%
13   West Palm Beach, Florida           26,245          29,906             87.8%
14   Sacramento, California             26,190          37,729             69.4%
15   Birmingham, Alabama                25,325          21,765            116.4%
16   El Paso, Texas                     25,188          28,480             88.4%
17   Charlotte, North Carolina          24,878          42,398             58.7%
18   Shreveport, Louisiana              24,816          21,862            113.5%
19   Jackson, Mississippi               24,526          23,937            102.5%
20   Atlanta (West), Georgia            24,315          20,455            118.9%
21   Indianapolis, Indiana              24,224          21,523            112.5%
22   Indianapolis( East), Indiana       24,054          21,689            110.9%
23   Pensacola, Florida                 24,021          20,193            119.0%
24   Indianapolis (West), Indiana       22,997          21,481            107.1%
25   Houston (Southeast), Texas         22,987          23,312             98.6%
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      November 22, 2011                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Controls for Issuing Social Security Number
           Printouts” (A-04-11-11105)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our revised comments
           concerning recommendation number two.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONTROLS FOR ISSUING SOCIAL SECURITY NUMBER PRINTOUTS”
(A-04-11-11105)


General Comments

We appreciate your acknowledgment of our actions in response to your December 2007 report,
“Controls for Issuing Social Security Number Verification Printouts.” Safeguarding the integrity
of the Social Security number (SSN) is one of our top priorities. In the vast majority of cases,
we correctly issue printouts in response to legitimate requests from members of the public.

We support efforts to reduce the demand for printouts, and to minimize the printouts’
vulnerability to fraud or misuse. Based on the concerns raised in your report, we will evaluate
the overall SSN printout process and revise our policies and internal controls in order to limit
SSN printouts. These revisions will include additional management information and automated
tools that will provide increased management oversight. Automated support for some integrity
and management information initiatives may require significant computer system enhancements.
The pace of those enhancements depends in large part on available funding.

Recommendation 1

Establish a limit on the number of SSN Printouts an individual may obtain in a day, year, and
lifetime and require specific management approval for requests that exceed that limit.

Response

We agree. We plan to revise our policy to limit the number of printouts an individual may
obtain.

Recommendation 2

Establish procedures that enable management to identify instances when the issuance of SSN
Printouts may be reduced and enhance management oversight.

Response

We agree. We plan to develop additional easily accessible and easy-to-use SSN printout
management information that will give mangers sufficient tools to oversee the SSN printouts
issued by employees in their office, making routine integrity reviews unnecessary.

Recommendation 3

Require management approval prior to issuing an SSN Printout to an individual who provides
insufficient or no identity documents.



                                              G-2
Response

We disagree. As we stated in our general comments and in response to your other
recommendations, we support adding additional tools that will improve management’s ability to
monitor this activity as well as controls that will help ensure that printout issuances conform to
our policies. Additionally, we plan to do a full review of our printout policies to identify areas
where we can further improve our identity requirements. However, we do not believe that
management review of every request involving insufficient or nonexistent documentation would
be cost effective in light of our other, planned enhancements.

Recommendation 4

Develop and implement a cost-effective method for controlling and accounting for the issuance
of SSN Printouts.

Response

We agree.

Recommendation 5

Develop and disseminate management information for the SSN Printout workload to responsible
SSA personnel. At a minimum, the information should enable managers to identify anomalies in
the number of SSN Printouts issued by field offices and to numberholders.

Response

We agree. The planned management information enhancements will allow managers to identify
anomalies in the SSN printouts issued.

Recommendation 6

Issue a reminder to field office staff to issue SSN Printouts in accordance with SSA policy. We
believe the reminder should advise that staff should not issue SSN Printouts to every replacement
SSN card applicant. SSA should also remind field office staff to obtain a signed form from all
individuals, who do not have adequate identification, stating they are who they claim to be.

Response
We agree.




                                               G-3
                                                                         Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-04-11-11105.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
